           U.S. Department of Energy
           Office of Inspector General
           Office of Audit Services




Audit Report

Recovery of
Resolution  of Significant
               Costs for Finding
                            the Proprietary
Investigation
Use           Recommendations
     of the Advanced       Photon Source




DOE/IG-
DOE/IG-0753                              November2007
                                         January  2002
                             Department of Energy
                                  Washing<~n,DC 20585

                                   January 11, 2007



MEMORANDUM FOR TEE SECRETARY

FROM:                    +?*
                         Greg y . n e man
                         Inspector General


SUBJECT:                 INFORMATION: Audit Report on "Recovery of Costs for the
                         Proprietary Use of the Advanced Photon Source1'

BACKGROUND

The Department of Energy is responsible for the operation of the Advanced Photon
Source, a light source user facility at the Argonne National Laboratory. The facility was,
until recently, operated for the Department by the University of Chicago. It is currently
operated by UChicago Argonne, LLC. Using x-ray beams from the Advanced Photon
Source, scientists conduct leading-edge research in areas such as material science,
biology, physics and chemistry. The Advanced Photon Source was completed in 1995 at
a cost of $467 million, and it was constructed to operate at an optimal capacity of 70
beam lines. Each beam line provides high intensity x-rays for research in almost all
scientific disciplines for government, academia and the private sector. The annual
operating budget of the facility is about $90 million, and the Department's Argonne Site
Office administers the contract for Laboratory operations.

Currently, there are 46 beam lines operating at the Advanced Photon Source, and each
beam line provides about 5,000 hours of available time for scientific inquiry. Before
being allocated beam time, proposals are peer reviewed to ensure scientific and technical
merit. Ream time is then allotted for either non-proprietarv experiments, in which the
results are to be published in scientific journals, or for proprietary experiments, in which
the results are retained by users. Departmental and Federal directives require full
recovery of operating costs for proprietary usage. We initiated this audit to determine
whether the Department was effectively recovering funds to offset operating costs for the
proprietary use of the Advanced Photon Source.

RESULTS OF AUDIT

We determined that the Department was not effectively administering financial controls
over proprietary research at the Advanced Photon Source. Specifically, we found that the
Laboratory:

        Charged hourly rates for proprietary usage of the Advanced Photon Source that
        did not sufficiently cover operating costs;
       Routinely reduced the number of hours charged from the time recorded by floor
       coordinators; and,

       Did not always collect advances for proprietary experiments or bill those
       conducting proprietary research in a timely manner.

During our review, we noted that the Department had not reviewed Advanced Photon
Source charges for proprietary research since its inception in 1995. Additionally, the
Laboratory had not established adequate controls to ensure accurate reporting of
proprietary usage, require advance payments and bill proprietary users in a timely
manner.

As a result, the Department was, in effect, subsidizing scientists conducting proprietary
research at Argonne by at least $3 million from Fiscal Year (FY) 2004 through the first
quarter of FY 2006. This was directly due to Argonne's charging policies and
procedures. The Department, in essence, also used taxpayer provided funds to "float"
experiments that were conducted to benefit for-profit concerns. Until the pricing policies
for the Advanced Photon Source are restructured in accordance with Federal
requirements and financial controls are improved, the Department will continue
subsidizing proprietary researchers. To address this situation, we made recommendations
to the Manager of the Argonne Site Office to adjust the rate structure for the Advanced
Photon Source, establish controls to accurately record proprietary usage, and improve
billing and collection practices.

MANAGEMENT REACTION

Management agreed to adjust its proprietary rates over the next two fiscal years to more
closely retlect the proprietary users' actual share of operating costs and to take other
actions to improve financial controls. However, it disagreed with our conclusion that
Argonne's proprietary rates had been understated in the past, and our recommendation
that lost collections should be recovered. It maintained that the proprietary rates, which
had been in effect for the past ten years, were appropriate for a facility that was in the
process of increasing the number of users to full capacity and maximizing the scientific
and technical output of the Advanced Photon Source.

While we recognize the importance of the scientific research conducted at the Advanced
Photon Source, management's position is not consistent with the Department's policy of
recovering the full cost of operations when proprietary research is conducted at its
facilities. In our view, since management had not reviewed proprietary rates for over ten
years, it could not be assured that the rates were appropriate, or that any needed rate
changes would affect the number of users and amount of scientific output. As noted in
the report, unlike other users who publish their research data, proprietary users do not
share their research results, intending to seek patents and profit from their research. A
more detailed summary of management's response and our comments is addressed
beginning on page 6 of the report.

Attachment
cc: Deputy Secretary
    Under Secretary for Science
    Chief of Staff
    Chief Financial Officer
    Deputy for Programs, Office of Science
    Acting Manager, Argonne Site Office
    Manager, Chicago Operations Office
REPORT ON RECOVERY OF COSTS FOR THE PROPRIETARY USE OF
THE ADVANCED PHOTON SOURCE


TABLE OF
CONTENTS


  Proprietary Usaqe of the Advanced Photon Source




  Appendices

   1. Objective, Scope, and Methodology                          .............................................................................   9

   2. Proprietary Rage Calculation                   ........................................................................................    11

   3. Related Audit Reports               ...................................................................................................    12

   4. Management Comments.................................................................................................                       13
PROPRIETARY USAGE OF THE ADVANCED PHOTON SOURCE


Recovery of         Argonne National Laboratory (Argonne) was not effectively
Proprietary Usage   managing the recovery of operating costs for proprietary research
Costs               at the Advanced Photon Source (APS). Specifically, we found that
                    Argonne charged an inappropriately low proprietary rate; routinely
                    reduced the number of hours charged to proprietary users from
                    those recorded by its system; and, did not bill in a timely manner
                    or require advanced funding from users.

                                          Beam Line Use Rates

                    Argonne charged proprietary users about half of the hourly rate
                    needed to recover the full operating cost of using the APS. Table 1
                    (below) illustrates the difference in hourly rates charged by
                    Argonne compared to the full operating cost recovery rates during
                    Fiscal Year (FY) 2004 through the first quarter of FY 2006.
                    Overall, Argonne's hourly rate ranged from 45 to 50 percent below
                    the full cost recovery rate.




                    While Argonne used an appropriate dollar estimate for operating
                    costs, we found that Argonne used values for both the number of
                    beam lines and the number of beam hours that overstated capacity.
                    Specifically, although the APS has consistently demonstrated that
                    it has only about 42 to 46 beam lines, each with 5,000 hours of
                    beam time that are available each year, Argonne calculated the
                    proprietary rate based on the optimal perfomiance of 70 beam lines
                    each with 6,000 hours of beam time. Consequently, the
                    established proprietary rate did not represent the actual share of
                    operating costs experienced at the APS. Appendix 2 explains more
                    fully our calculation of the full operating cost recovery rates.

                                            Beam Line Hours

                    Further, Argonne could not be assured that it had charged
                    proprietary researchers for the correct number of hours used on the
                    APS. Specifically, Argonne routinely reduced the number of hours
                    charged to users from the time recorded by its floor coordinators
                    based upon users' contention that experiments were ended early or
                    that hours were incorrectly recorded. Although users are required
                    to provide real-time notification to Argonne floor coordinators
                    when experiments begin and end, we found that Argonne reduced
                    the billable house even when coordinators had not been notified at
                    the time of the experiment.


Page 1                                                             Details of Finding
         For example, during calendar year 2005, Argonne adjusted the
         reported usage of the APS based on user responses to a system-
         generated billing notification for more than 67 percent of the 270
         proprietary experiments. These adjustments totaled 4,980 hours
         and reduced the billable hours initially recorded in the system by
         39 percent. To determine the adequacy of the system, we reviewed
         a sample of 30 proprietary experiments reported during calendar
         year 2005. Our review identified 14 experiments with 522 hours in
         billable hour reductions for which the user contended that the end
         time and date entered by the floor coordinator were incorrect or
         where recording errors were made. Examples of the proprietary
         hour adjustments included:

              97 hours reduced to 1 hour of proprietary usage. The user
              contended that the "automated system mis-recorded our
              proprietary declaration." The user supposedly talked with the
              floor coordinator, but was not sure who the floor coordinator
              was.

              52 hours reduced to 14 hours of proprietary usage. The user
              claimed that the experiment had ended early and he had only
              used the beam two days instead of the three days recorded.
              However, the floor coordinator was not contacted when the
              experiment was completed.

         Finally, we also noted that, during calendar year 2005, one
         automated experiment station accessed the APS main beam line for
         1,464 hours that were not claimed as proprietary use, although the
         research performed is predominately proprietary. According to
         management, the user was not conducting experiments the entire
         time, but received the beam to maintain a constant heat load on its
         optics. If it shut off the main beam, the user would need about an
         hour of beam time to heat the optical components.

                               Billings and Advances

         Argonne did not bill in a timely manner and did not always
         establish advances for proprietary experiments. Although
         Argonne's goal is to bill within 60 days, proprietary experiments
         were not billed for an average of 21 1 days until after the
         experiment ended during the period of October 2003 through
         December 2005. Although it has not met its 60 day billing goal,
         Argonne has improved the timeliness of its billing and reduced the
         time it took to bill for proprietary experiments to 1 18 days, on
         average, for experiments conducted during the first quarter of
         Fiscal Year 2006.



Page 2                                                 Details of Finding
                    Argonne also allowed proprietary experiments to start or continue
                    without advanced funding required by both Departmental and
                    Federal directives. The use of the Department of Energy's
                    (Department) resources to finance proprietary usage of the APS is
                    prohibited by Department's Accounting Handbook, Chapter 13,
                    Reirnhtlrsable Work, Revenues, and Other Collections, and the
                    Office of Management and Budget's Circular A-25, User Churges.
                    However, in a j udgmental sample of 60 of the 48 1 billed
                    experiments, we found that 49 did not have advances established
                    until an average of 243 days after the experiment was completed.
                    Although the advances were in place for the other 11 experiments,
                    Argonne had not applied the billings against the advance until an
                    average of 169 days after the end of the experiments. In both
                    situations, the Department's resources were used to offset missing
                    or unapplied advances.

Administration of   Argonne was not effectively managing the recovery of operating
Proprietary Usage   costs associated with the proprietary use of the APS because it did
                    not (a) update and review its basis for the hourly rates charged to
                    proprietary users; (b) establish and enforce controls to accurately
                    record proprietary use; and, (c) establish adequate controls to
                    monitor and detect delinquent proprietary billings and insufficient
                    advances.

                                                Hourly Rates

                    DOE Order 522. I, Pricing of Departmental Materials and
                    Services, requires that rates be established to recover the full cost
                    of certain Department products and services, such as proprietary
                    research at the Department's user facilities. Although not
                    prescriptive, the rate should be based on anticipated costs and
                    capacity for each year in order to achieve full cost recovery.
                    However, Argonne's management at the APS did not calculate a
                    rate that would achieve full cost recovery because, in calculating
                    the rate, it used optimal rather than anticipated number of hours
                    and beam lines available, since the inception of the APS in 1995.
                    In contrast, the proprietary rates at Brookhaven's light source are
                    based on current operating capacity.

                    Although Argonne did not have documentation explaining why it
                    used the optimal capacity, the Deputy Director of the APS said that
                    the number of beam hours originated in the beginning of the
                    project and had not been updated. The official also indicated the
                    maximum number of beam lines may have been originally
                    established as the basis for the hourly rates because of concerns
                    about charging a significantly higher rate during the initial years of



Page 3                                                                Details of Finding
         operation in which the number of beam lines would have been
         minimal and when they were encouraging industrial participation
         at the facility.

         Additionally, the Argonne Site Office did not ensure that
         Argonne's proprietary rates achieved full cost recovery. Although
         pricing reviews of user charges are required on a biennial basis, the
         APS proprietary rates were never reviewed. The previous, as well
         as the most recent Departmental biennial pricing report of
         December 2005, failed to identify proprietary usage at the APS as
         an activity requiring a pricing review.

                                  Pro~rietaryHours

         Argonne made adjustments to proprietary hours as requested by
         the users, without question, because it did not enforce its system to
         record the hours spent on proprietary research and did not require
         users to certify their proprietary hours. In December 2004,
         Argonne implemented a proprietary usage system that requires the
         users to notify APS floor coordinators who record the start and end
         times in an APS database. However, Argonne did not enforce the
         requirement. We identified 14 instances out of the 30 experiments
         where either the floor coordinator was not notified or recording
         errors were claimed to have been made. In each case, Argonne
         made subsequent changes to the recorded hours based upon the
         user contcntion that fewer hours were actually used in the
         experiment. The requirement to contact the floor coordinator is
         crucial to provide confidence in the system to record hours, as no
         other means were identified which could be used to ensurc that all
         proprietary usage is accurately charged. Since Argonne does not
         require the user to certify the time recorded, Argonne had limited
         opportunity to refute contested claims by the users.

         Further, the controls were not cnforced at the automated
         experiment station. Although not conforming to Argonne's policy,
         the team operating this station provided a weekly declaration of
         proprietary usage hours because contacting the floor coordinator
         between experiments was impractical. However, as we noted
         above, the experiment station accessed the main beam line for
         more hours than declared. Argonne had not considered
         alternatives to ensure the unclaimed hours were not used for
         proprietary experiments. For example, the station's operator
         indicated that the shutter to the main beam line could be closed at
         the end of the experiments.




Page 4                                                   Details of Finding
                                          Billings and Advances

                   Argonne also did not establish adequate controls over billings and
                   advance activities. While APS management pointed out that
                   diminished en~ployeeperformance contributed to the untimely
                   billing problem, we noted that Argonne did not have policies or
                   procedures covering these activities. For example, there were no
                   requirements for management to obtain and review aging
                   schedules or status reports, which would show the timeliness of
                   billings or call attention to insufficient user advances. Further, we
                   noted the absence of formal desk procedures detailing how and
                   when to prepare the billings for proprietary usage and monitor the
                   adequacy of advances.

Recovery of        As a result of Argonne not effectively managing the recovery of
Costs and Use of   operating costs, the Department's forgone revenues totaled at least
Department Funds   $3 million during FY 2004 through the first quarter of 2006. As
                   shown in Table 2, had the full cost recovery rate been charged for
                   proprietary usage, the APS could have applied $3 million to offset
                   its operating costs, safeguards and security costs, and the
                   Department's administrative charge.




                   Until the rate is corrected and controls over the usage recording
                   system are strengthened, the Department will continue to forgo an
                   average of at least $1.3 million per year. Additionally, the
                   Department is likely to lose an indeterminate amount of revenues
                   until it improves the identification of billable hours due to
                   proprietary usage.

                   Finally, as a result of Argonne not establishing sufficient advances,
                   we estimate that the Department used its funds to "float"
                   experiment costs of $370,205 for the 49 sampled experiments that
                   did not have adequate advances.




Page 5                                                              Details of Finding
RECOMMENDATIONS   We recommend that the Manager, Argonne Site Office:

                        1. In conjunction with the Chicago Operations Office,
                           conduct pricing reviews of the APS proprietary rates in
                           accordance with DOE Order 522.1 for FY 2006 and
                           future years;

                       2. Direct Argonne to develop or revise policy and
                          procedures over proprietary activities to ensure:

                                a. Proprietary rates calculations are in accordance
                                   with Departmental and Argonne policy;

                                b. Proprietary usage is accurately recorded by
                                   requiring, at a minimum, users to certify the
                                   beginning and ending times of proprietary
                                   experiments and addressing experiment stations
                                   that fall outside the typical operating scenario;
                                   and,

                                c. Proprietary billings and collections are
                                   performed in a timely manner, including the
                                   establishment of monitoring and detection
                                   controls such as aging schedules, status reports,
                                   and desk procedures.

                       3. Make a determination as to the recovery of lost
                          collections from the University of Chicago due to rate
                          deficits in FYs 2004 through FY 2006 and a loss of
                          billable hours, as appropriate.


MANAGEMENT        The Argonne Site Office and Basic Energy Science (BES)
REACTION AND      generally agreed to implement recomn~endationsto adjust the
AUDITOR           proprietary rates, improve the recording of billable hours, and to
COMMENTS          to enhance proprietary billings and collections. However, they
                  disagreed with our conclusion that the APS' proprietary rates were
                  understated in the past and our recommendation regarding the recovery
                  of lost collections. Management agreed to comply with DOE Order
                  522.1 by modifying its proprietary rates over the next two fiscal years to
                  more closely reflect the estimated actual hours and operating beam lines.
                  Management also agreed to direct Argonne to revise its policy and
                  procedures, implement controls to improve the timeliness of collections
                  and require users to electronically certify the time they begin and finish
                  their experiments.




Page 6                                         Recommendations and Corr~ments
         However, information provided by management as a supplenient to its
         formal comments indicated disagreement with several points in the
         report. Management's disagreements, followed by our responses, are
         detailed below.

         Management Comment: Management disagreed with our conclusion
         that Argonne's proprietary usage rates for FY 06 and earlier were
         understated. According to management, using the actual number of
         operational beam lines rather than the projected number of beam lines
         would unduly penalize the proprietary users while the number of users
         was being increased to full capacity. Management claimed that there is
         no official definition of what full cost recovery means for a user facility
         that does not have the maximum number of users onboard to utilize the
         facility to its full capacity. Further, management did not agree that
         research and development costs to optimize the beam line should be
         included as part of the operating costs. However, it agreed to seek a
         determination from the Department's Chief Financial Officer (CFO)
         regarding its proposal to increase the rates over several years while
         excluding research and development costs from the proprietary rate.

         Auditor Comment: Although it disagreed with our conclusion that
         proprietary rates were understated in the past, management's
         agreement to adjust the rate and seek a CFO detennination is a
         positive step. Unlike other users that publish their research data,
         proprietary users do not share their research results, intending to
         seek patents and profit from the patents. Full recovery of costs,
         including research and development costs, that benefit proprietary
         research is necessary to avoid any subsidy of private research at
         taxpayer expense, as required by Departmental policy. Therefore,
         we believe it is appropriate to seek recovery of research funds that
         benefit the proprietary users.

         Management Comment: Management determined recovering
         money lost from the understated rate would show bad faith on the
         part of Department and not be in its best interest. Management
         asserted the general user and the taxpayer have benefited from
         Argonne's policy not to recover full operating costs. It stated that
         two proprietary users have invested a combined total of over
         $19 million in capital and operating cost to provide state-of-the-art
         beam lines, which are available to APS general users 25 percent of
         the time. As an example of the benefits of the proprietary use,
         management stated the potent anti-AIDS drug "Kaletra" was
         developed in part based on data collected at one of these beam
         lines. Management believes that neither of these beam lines would
         exist today had Argonne charged full costs.



Page 7                                                            Comments
         Auditor Comment: Although we cannot speculate about what
         proprietary users would have done if faced with higher rates,
         proprietary users receive substantial value for their use of the APS.
         Namely, the Department does not require the recovery of
         depreciation or imputed interest on the Department's $467 million
         investment to construct the APS.

         Further, we noted that general usage of the beam lines provided by
         the two proprietary users identified by management were below
         the 25-percent level for the period we reviewed. During this
         period, one of the beam lines was being constructed and
         con~n~issioned,   and was not fully staffed. The second proprietary
         user provided less than one percent of the available beam time to
         general users because its automated operation restricts the type of
         san~plesit can accept. Thus, while it is available as management
         stated, its functionality to general users is limited.

         However, we have clarified our recommendation to focus on the
         recovery of lost collections due to deficits in the proprietary rate,
         as well as, the loss of billable hours, from Argonne and not the
         proprietary users. Specifically, Argonne, as the Department's
         contractor is required to implement the Department's Orders on full
         cost recovery for user services paid for by the government.
         Accordingly, we believe that Argonne is responsible for loss
         collections due to the Department as a result of services provided
         to proprietary users at government expense.

         Management Comment: Finally, management determined not to
         recover billable hours. Management believes there is adequate
         incentive for proprietary users to provide reasonably accurate and
         honest statements of proprietary beam time use. With respect to
         the automated beam line mentioned in the report, management
         stated it would add additional shutter monitors and require
         software changes to improve monitoring of beam line usage.
         However, management did not intend to charge users for the beam
         time used to heat the optics before delivery to the proprietary
         experiment station.

         Auditor Comment: We are concerned that management does not
         feel justified in making an attempt to collect a portion of the hours
         related to the automated operation. The APS policy states that the
         proprietary user fee should be charged for any activity such as
         experiment setup and mounting and aligning samples that is, or is
         intended to be, proprietary and the APS is delivering user beam.
         Thus, we believe the consistent application of APS policy justifies
         recovering the time used to heat the optics as billable hours.


Page 8                                                            Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the
              Department of Energy (Department) is effectively recovering
              operating costs for the proprietary use of the Advanced Photon
              Source.


SCOPE         The audit was performed between January 2006 and December
              2006 at the Advanced Photon Source, located at Argonne National
              Laboratory in Argonne, Illinois. The scope of the audit included a
              review of the proprietary use of the Advanced Photon Source from
              October 1, 2003, through December 3 1, 2005.


METHODOLOGY   To accomplish the audit objective, we:
                      Kesearched applicable Federal and Departmental
                      regulations and guidance;
                      Reviewed Argonne National Laboratory policies regarding
                      proprietary usage of the Advanced Photon Source;
                      Assessed the appropriateness of the methodology used to
                      calculate the proprietary usage hourly rate;
                      Tested the effectiveness and efficiency of the proprietary
                      billings;
                      Evaluated the adequacy of the system used to determine
                      the duration of proprietary experiments;
                      Sampled and tested billings and cxperiment usage data;
                      Held discussion with key Argonne officials and stafc
                      Met with Departmental staff from the Argonne Site Office
                      and Chicago Operations Office; and,
                      Interviewed proprietary users of the Advanced Photon
                      Source.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for perfornlance audits and
              included tests of internal controls and compliance with laws and
              regulation to the extent necessary to satisfy the audit objective.
              We assessed the Department's compliance with the Government
              Performance and Results Act of 1993. The Department has
              established performance measures for the Advanced Photon
              Source related to its ability to maximize access and utilization.
              Because our review was limited, it would not necessarily have
              discovered all internal control deficiencies that may have existed at



Page 9                                   Objective, Scope, and Methodology
Appendix I(continued)


                   the time of our audit. In performing this audit, we relied on
                   computer-based data and performed limited testing on the data we
                   considered critical to satisfying the audit objective. We noted
                   inaccuracies in the data obtained on billable hours and, in order to
                   use this data, adjusted the number of billable hours based on our
                   inquiries and reviews of supporting documents. We also requested
                   that the numbcr of billable hours be examined.

                   An exit conference was held with Argonne Site Office officials on
                   December 1 1,2006.




Page 10                                        Objective, Scope, and Methodology
Appendix 2

                          PROPRIETARY RATE CALCULATION


We calculated the hourly rate by dividing the anticipated annual operating costs by the
anticipated capacity. The anticipated beam lines and hours have consistently reflected actual
capacity experienced at the Advance Photon Source.




  1 . The number of beam lines expected to be available for use during each fiscal year.

  2. The number of hours budgeted, scheduled, and provided for each time period.

  3. The amount budgeted for facility operations in the upcoming year plus the Safeguards and
     Security surcharge of 1.2 percent and the Department of Energy's (Department)
     administration charge of 3 percent. As stipulated in the Department's directive, the cost of
     depreciation and imputed interest are not to be recovered.




Page 11                                                          Proprietary Rate Calculation
Appendix 3

                              RELATED AUDIT REPORTS


     Synchrotron Rudiution Light Sources ut Lawrence Berkeley National Laboratoq~and
     Statford Linear Accelerator Laborator?/ (DOEIIG-0562, July 2002). The audit identified
     that the beam lines at Berkeley National Laboratory were not being fully utilized. Beam
     lines were idle 35 percent of the time when 150 scientifically valid research proposals
     had been rejected. Berkeley did not have a centralized scheduling system and therefore
     was unaware that additional beam time was available. As a consequence, independent
     researchers were unnecessarily turned away. In addition, it was noted that the Office of
     Basic Energy Science did not provide guidance on tracking and reporting actual use of
     the Synchrotron facilities or establish useful performance measures to evaluate their use.
     As a result, opportunities to conduct valuable research with the potential to benefit the
     researcher, the Department of Energy (Department), and the public were lost. The audit
     recommended the implementation of a centralized scheduling system, and that scheduled
     time is used in accordance with the schedule; reporting of actual usage; and
     implementation of performance measures.

     Peer Reviewed ScientlJic Literature Generuted at the Department's Light Sources
     (DOEIIG-0520, August 2001). The audit identified that only 44 percent of the abstracts
     generated from research performed at the Department's light sources had been available
     for public dissemination through the Office of Scientific and Technical Information
     (OSTI). The audit disclosed that abstracts were not available because the Department
     had not established adequate procedures to ensure that peer-reviewed journal literature
     for research performed at the light sources was collected in OSTI's PubSCIENCE
     database. Although required to notify OSTI, the laboratories did not notify OSTI of the
     peer-reviewed journal articles. As a result, researchers did not have full and ready access
     to valuable government-sponsored research information and that scientific advancement
     was not fully promoted. The audit recommended that OSTI monitor and obtain the
     publications being generated from the light sources and obtain published literature from
     publishers with agreements with OSTI.

     Cost Sharing rlt Basic Energy Sciences' User Facilities (DOEIIG-044 1 , March 1999).
     The audit identified the potential for Basic Energy Science to obtain additional funding
     for user facilities from industry and other agencies that benefit from the facilities. The
     audit recommended that the Director, Office of Science, consider opportunities to share
     cost enhancements and perform feasibility studies to obtain cost sharing.




Page 12                                                                Related Audit Reports
Appendix 4




                                          Department of Energy
                                                Argonne Site Off ice
                                             9800 South Cass Avenue
                                              Argonne, Illinois 60439

                                                      NOV O E 2 0 0 ~
          George W. Collard
          Assistant lnspector General
           For Performance Audits
          Office of lnspector General

          SUBJECT:       DRAFT REPORT ON fiAUDIT OF MANAGEMENT CONTROLS OVER
                         PROPRIETARY USAGE OF THE ADVANCED PHOTON SOURCE
                         (APS) AT ARGONNE NATIONAL LABORATORY"

          This letter provides the Management Response to rhe above subject draft audit report
          for the Office of Basic Energy Sciences (BES) and the Argonne Site Office (ASO).
          Attached is a detailed Management Response, developed in consultation with BES,
          providing the rationale for our response to your recommendations. Below we have
          addressed each of your recommendations in the order given in the report.

          RESPONSE TO RECOMMENDATIONS

             1 . In conjunction with the Chicago Operations [sic] Office (CH), conduct pricing
                 reviews of the APS proprietary rates in accordance with DOE Order 522.1 for FY
                 2006 and future years.

                 ASO, with the help of CH, has reviewed the priclng rates for FY 06, and as
                 discussed below, we believe such rates were appropriate. We concur that future
                 pricing rates must be consistent with DOE Order 522.1; however, there is no
                 official prescriptive rate for recovery of costs at a user facility.

             2. Direct Argonne to develop or revise policy and procedures over proprietary
                 activities to ensure:

                 a) Proprietary rates calculations are in accordance with Departmental and
                 Argonne policy.

                 Agree. AS0 will direct ANL to develop revised policy and procedures
                 implementing the attached Management Response regarding the policy on
                 proprietary rate calculations.

                 b) Proprietary billings and collections are performed in a timely manner, including
                 the establishment of monitoring and detection controls such as aging schedules,
                 status reports, and desk procedures; and,

                 Agree. Corrective actions have already taken place to ensure that billings and
                 collections are performed in a timely manner.

                 c) Proprietary usage is accurately recorded by requiring, at a minimum, users to
                 certify the beginning and ending times of proprietary experiments and addressing
                 experiment stations that fall outside the typical operating scenario;


                                         A cornponenl of the Office of Science




Page 13                                                                          Management Comments
Appendix 4 (continued)




          George W. Collard


                   Agree. APS has agreed to implement a certification process to ensure that
                   proprietary usage is accurately recorded.

                3. Make a determination as to the recovery of lost collections due to rate deficits in
                   FYs 2004 through FY 2006, as appropriate; and,

                4. Make a determination as to the recovery of billable hours.

                   Our analysis shows that user contributions far exceed any potenrial lost
                   collections. In fact, two users have contributed over $19M in capital and
                   operating cost to provide state-of-the-art facilities that are made available to other
                   users. An attempt to recover '70st collections" would show bad faith on the part
                   of DOE, and we believe recovery is not in the best interest of the DOE program
                   funding the APS. Furthermore, BES and AS0 believe that there is adequate
                   incentive for APS proprietary users to provide reasonably accurate and honest
                   statements of proprietary beamtime use, and therefore no recovery should be
                   made.

          If you have any questions, you may contact me at 630-252-2250 or Nancy Oetter at 630-




                                                                L&
          252-2325.



                                                           Q.
                                                          A. Creig Zoo
                                                          Acting site Manager

          Enclosure:
          As Stated

          cc:      P. Dehmer, DOUHQ, SC-22/GTN, wlencl.
                   J. M. Gibson, ANUAPS, wlencl.
                   M. Bartos, ANUOCF, wlencl.
                   E. O'Connor, ANUOCF, wlencl.
                   L. Novotny, ANUOTD, wlencl.
                   T. Van Deven, OIG, wlencl.
                   W. Lubecke, OIG, wlencl.




Page 14                                                                         Management Comments
                                                                      IG Report No. DOEIIG-0753

                           CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your tho~lghtswith US. On the back of this form,
you may suggest inlprovements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and reconlmendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader'?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG- 1 )
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                       attached to the report.
